BECKER GALLAGHER
Briefs

and

DONNA J. WOLF, J.D.
JULIE

Records

CERTIFICATE OF SERVICE
I, DonnaJ. Wolf, hereby certify that 1 unbound and
40 copies of the foregoing Motion for Leave to File
Amicus Brief and Amicus Brief of Thomas E. Weaver
in Support of Respondents in 19-518, Colorado
Department of State v. Micheal Baca; Polly Baca; and
Robert Nemanich, were sent via Next Day Service to
the U.S. Supreme Court, and 3 copies were sent via
Next Day Service and e-mail to the following parties
listed below, this 7th day of November, 2019:
Eric R. Olson
Solicitor General
Office of the Colorado Attorney General
1300 Broadway, 10th Floor
Denver, Colorado 80203
(720) 508-6000
Eric. 0 lson@coag.gov

Counsel for Petitioner
Lawrence Lessig
Harvard Law School
1563 Massachusetts Avenue
Cambridge, MA 02138
(617) 496-8853
lessig@law.harvard.edu
Jason Wesoky
Darling Milligan
1331 17th Street, Suite 800
Denver, CO 80202
(303) 623-9133
jwesoky@darlingmilligan.com

Counsel for Respondents

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

I

(800) 890.5001
www.beckergallagher.com

I

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

A. KERSHNER, J.D.

Thomas E. Weaver
Counsel of Record
PO Box 1056
Bremerton, WA 98337
(360)792-9345
tweaver@tomweaverlaw.com

Counsel for Amicus Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on November 7, 2019.

Wo

DonnaJ.
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

JULIEANNE l<ERSHNER
No!ary Public, State of Ohio
My Commission Expires
February 21, 2023

